	
        Performance Audit of the
Federal Communications Commission’s
 Managerial Cost Accounting System


           Fiscal Year 2009




           Date: May 17, 2010
                                                  Table of Contents


Executive Summary.............................................................................................................1

Background ..........................................................................................................................3

Results of Audit ...................................................................................................................5

       Finding A – BEAMS Does Not Produce Complete Cost Data................................... 5
       Finding B – Managerial Cost Accounting System Does Not Comply with FSIO
       Information Requirements .......................................................................................... 6
       Finding C – FCC Has Not Fully Documented Requirements for the New Managerial
       Cost Accounting Subsystem ....................................................................................... 9
Appendix A: Objective, Scope, and Methodology....………………………………..….13

Appendix B: BEAMS Process Narrative..……………………………………………....15

Appendix C: Management’s Responses to Findings……………………………………18

Appendix D: Detailed Information for Finding C.……………………………………...20

Appendix E: Glossary……...……………………………………………………………23

Appendix F: Acronyms.…………………………………………………………………25
Executive Summary
On behalf of the Office of Inspector General (OIG), Williams, Adley & Company, LLP
(Williams Adley) completed a performance audit of the Federal Communications
Commission’s (FCC) managerial cost accounting system. The audit was conducted from
October 2009 through March 2010 at FCC headquarters in Washington, District of
Columbia.

The objective of the performance audit was to determine whether FCC’s managerial cost
accounting system1 is compliant with the Financial Systems Integration Office (FSIO)
System Requirements for Managerial Cost Accounting for fiscal year ending September
30, 2009. FCC, through its Momentum Genesis project, will be upgrading the current
Budget Execution and Management System (BEAMS) to the new version of Momentum
Enterprise, which is scheduled to be implemented in October 2010. As part of our audit
of BEAMS, we also compared the FCC’s documented system requirements for the new
managerial cost accounting subsystem to the FSIO System Requirements for Managerial
Cost Accounting to identify variances.

We conclude that as implemented by FCC, the managerial cost accounting system does
not substantially comply with the FSIO System Requirements for Managerial Cost
Accounting. Specifically, we identified the following conditions:

        A. BEAMS does not produce complete cost data to support the Consolidated
           Statement of Net Cost. Currently, FCC uses a manually intensive process to
           produce the Consolidated Statement of Net Cost.

        B. The managerial cost accounting system does not comply with FSIO
           information requirements for a managerial cost accounting system because the
           system does not include FSIO required data elements from the financial and
           operations information classification structures.

        C. FCC management has not documented all of the key requirements from the
           FSIO System Requirements for Managerial Cost Accounting for the new
           managerial cost accounting subsystem that will replace BEAMS.

Management concurs with all three (3) findings and we consider management’s
responses to be adequate to address the findings.

This report contains appendixes A-F to provide additional clarification and information.
Appendix A provides additional details on the objectives, scope, and methodology of this
audit. Appendix B discusses the BEAMS process and FCC’s manual and semi-
automated processes for collecting data for the production of FCC’s Consolidated
1
 As part of the managerial cost accounting system audit, the scope included the Budget Execution and
Management System (BEAMS), the manual processes to compile the Consolidated Statement of Net Cost,
and the system requirements for the new managerial cost accounting system.


                    Performance Audit of FCC’s Managerial Cost Accounting System
                                               1
Statement of Net Cost. Appendix C contains management’s responses to the findings and
recommendations. Appendix D contains a detailed discussion of our comparative
analysis of FCC’s system requirements for the new cost accounting system and FSIO
requirements. To clarify key terms, a glossary is provided in Appendix E.




                 Performance Audit of FCC’s Managerial Cost Accounting System
                                            2
Background
Williams Adley was contracted by the OIG to conduct a performance audit of the FCC’s
managerial cost accounting system for fiscal year ending September 30, 2009. As part of
our audit, we also compared the FCC’s documented system requirements for the new
managerial cost accounting subsystem to the FSIO System Requirements for Managerial
Cost Accounting to identify variances. We conducted this performance audit in
accordance with Government Accountability Office (GAO) Government Auditing
Standards (GAGAS), July 2007 Revision.

FCC is an independent federal agency directly responsible to Congress. The FCC was
established by the Communications Act of 1934 and is charged with regulating interstate
and international communications by radio, television, wire, satellite, and cable. The
FCC's jurisdiction covers the 50 states, the District of Columbia, and U.S. possessions.

According to the Statement of Federal Financial Accounting Standards (SFFAS) No. 4,
Managerial Cost Accounting Concepts and Standards for the Federal Government, the
managerial cost accounting concepts and standards contained in the statement are
intended to provide reliable and timely information on the full cost of federal programs,
their activities, and outputs. The cost information can be used by Congress and federal
executives in making decisions about allocating federal resources, authorizing and
modifying programs, and evaluating program performance. The cost information can
also be used by program managers in making managerial decisions to improve operating
economy and efficiency. SFFAS No. 4, in addition, allows for flexibility in setting up a
managerial cost accounting system tailored to the operational environment.

SFFAS No. 4 contains five (5) fundamental elements of managerial cost accounting: (1)
accumulating and reporting costs of activities on a regular basis for management
information purposes, (2) establishing responsibility segments to match costs with
outputs, (3) determining full costs of government goods and services, (4) recognizing the
costs of goods and services provided among federal entities, and (5) using appropriate
costing methodologies to accumulate and assign costs to outputs.

For a portion of the FCC’s Consolidated Statement of Net Cost, FCC implemented
BEAMS to allocate costs to prepare financial data. BEAMS is a subsystem of
Momentum Enterprise Solutions, a commercial-off-the-shelf financial management and
accounting software package from Consultants to Government and Industry (CGI).
FCC’s financial applications include the general ledger, Federal Financial System (FFS),
and a cost allocation subsystem, BEAMS. BEAMS interfaces with National Finance
Center (NFC) to receive payroll data. BEAMS also interfaces with FFS to receive non-
payroll related expenses, which are accumulated and allocated into cost categories using
project codes. FCC uses BEAMS to allocate costs (direct and indirect) to the FCC’s six
(6) strategic goals: Broadband, Competition, Homeland Security, Media, Modernize the
FCC, and Spectrum. Momentum is hosted by the National Business Center (NBC) data
processing facility at Reston, VA.

                  Performance Audit of FCC’s Managerial Cost Accounting System
                                             3
FCC, through its Momentum Genesis project, will be upgrading the current BEAMS
application (Momentum 6.1.2) to the new version of Momentum in October 2010.
Therefore, we compared the FCC defined system requirements for the new managerial
cost accounting subsystem to the FSIO System Requirements for Managerial Cost
Accounting.




                 Performance Audit of FCC’s Managerial Cost Accounting System
                                            4
Results of Audit
We conclude that as implemented by FCC, the managerial cost accounting system does
not substantially comply with the FSIO System Requirements for Managerial Cost
Accounting. Based on our audit test results, we identified three (3) findings. To assist
FCC management in tracking the findings and recommendations, the findings are lettered
and recommendations are numbered sequentially.

Finding A – BEAMS Does Not Produce Complete Cost Data

Condition:

BEAMS does not produce complete cost data to support the Consolidated Statement of
Net Cost. The majority of FCC expense data are not contained in BEAMS. Ninety-nine
percent of FCC net cost data (expense minus exchange revenue) are manually compiled
from electronic spreadsheets and the remaining one percent is generated from BEAMS.

FCC used the following manually intensive process to collect cost data to prepare the
Consolidated Statement of Net Cost in FY 2009. Each reporting component2 sent an
Excel spreadsheet with summary financial information to the FCC. The FCC then
generated a cost report from BEAMS. After the report generation, FCC reentered
BEAMS data into an Excel spreadsheet and combined the FCC data with the
components’ Excel spreadsheets to manually compile the Consolidated Statement of Net
Cost.

Criteria:

Financial Systems Integration Office (FSIO) System Requirements for Managerial Cost
Accounting states:

            “Managerial cost accounting systems should be fully integrated with other
             agency systems, that is, designed to eliminate unnecessary duplication of
             transaction entry and share data elements without rekeying or reformatting.”

            "The managerial cost accounting system should be able to provide cost data
             needed to produce the Statement of Net Cost for the agency’s financial
             statements."

Cause:

2
 The FCC components for financial statement purposes include: Universal Service Fund,
Telecommunications Relay Service Fund, and North American Numbering Plan.



                     Performance Audit of FCC’s Managerial Cost Accounting System
                                                5
BEAMS was not originally designed to collect and report on FCC and its components’
net costs; therefore, BEAMS was not integrated with the components’ automated
systems, according to FCC management. FCC management does not use BEAMS for
budgetary and other management reporting purposes. Instead, FCC uses BEAMS as a
reporting tool to accumulate and allocate FCC costs of conducting business across the
FCC’s six (6) strategic goals. BEAMS was not designed to function as a full managerial
cost accounting system as defined in SFFAS No. 4, Managerial Cost Accounting
Concepts and Standards for the Federal Government, and FSIO System Requirements for
Managerial Cost Accounting.

Effect:

The lack of system integration of component entities into BEAMS creates inefficiencies
because it requires FCC and component data to be reentered to compile the Consolidated
Statement of Net Cost. Reentering data also increases the risk of data entry errors and
ultimately reporting errors.

Recommendation:

We recommend the Chief Financial Officer:

    1. Evaluate and implement the electronic processes to transfer the components’ cost
       information into the new managerial cost accounting subsystem to integrate FCC
       and component data, which would produce the Consolidated Statement of Net
       Cost and management reports.

Management’s Response:

FCC management concurs. They have already begun to address this issue with the
replacement of BEAMS and the core financial system, which is scheduled to be
completed in October 2010. They will evaluate the new managerial cost accounting
subsystem to ensure that it will be fully integrated with other Commission systems and to
ensure that the system will provide cost data to meet the Commission’s needs.

Evaluation of Management’s Response:

We consider management’s response to be adequate to address the finding.

Finding B – Managerial Cost Accounting System Does Not Comply with
            FSIO Information Requirements

Condition:



                  Performance Audit of FCC’s Managerial Cost Accounting System
                                             6
The managerial cost accounting system does not comply with FSIO information
requirements for a managerial cost accounting system because the system does not
include FSIO required data elements from the financial and operations information
classification structures. The financial information classification structure is used for
collecting, categorizing, tracking, monitoring, and reporting information on federal
agency costs. The operations information classification structure captures information on
the outputs of an operation. Refer to Appendix E for a glossary explaining key terms.

Specifically, the managerial cost accounting system’s financial information data elements
do not include:

        Organization Unit (Reporting Entity and Responsibility Segment 3)

        Accounting Categorization (Entity, Non-entity, Inter-entity Indicator)

        Financial Accumulators (Planned Total Cost Dollars)

Also, the managerial cost accounting system’s operations information data elements do
not include:

        Operations Unit (Responsibility Segment)

        Activity Type (Product/Service Type)

        Efficiency Measures

        Standards (Planned Output Units and Planned Output Costs)

        Operations Accumulators (Output Unit and Output Unit Costs)

Criteria:

FSIO System Requirements for Managerial Cost Accounting states:

    a. “The essential categories of the financial information classification structure for
       cost accounting are organization unit, funding identification, accounting
       categorization, program, special descriptors, and financial accumulators.”




3
  A component of a reporting entity that is responsible for carrying out a mission, conducting a major line
of activity, or producing one or a group of related products or services. To illustrate, the Forest Service
may be a reporting entity because it may meet the reporting entity criteria. As such, it may establish
responsibility segments for itself. At the same time, the Forest Service may be regarded as a responsibility
segment of the Department of Agriculture, of which it is a component.


                      Performance Audit of FCC’s Managerial Cost Accounting System
                                                   7
           i.    For Organization Unit, the managerial cost accounting system needs at
                 least three levels: Reporting Entity, Responsibility Segments, and
                 Responsibility Centers.

          ii.    For Accounting Categorization, the managerial cost accounting system
                 needs at least: Standard General Ledger Account, Object Class/Cost
                 Element, Entity, Non-entity, Inter-entity Indicator, Federal/Nonfederal
                 Indicator, and Reporting Period.

          iii.   For Financial Accumulators, the managerial cost accounting system
                 should be capable of accumulating the monthly, current year, four prior
                 years, and inception date total for: Cost Dollars, Planned Total Cost
                 Dollars, and Units.

   b. “The essential categories of the operations information classification structure are
      operations unit, activity type, efficiency measures, standards, and operations
      accumulators.”

           i.    For Operations Unit, the managerial cost accounting system needs:
                 Responsibility Segments, Responsibility Centers, Program, and Projects.

          ii.    For Activity Type, the managerial cost accounting system should capture
                 information on Product/Service Type.

          iii.   For Efficiency Measures, the managerial cost accounting system should
                 capture information on Efficiency Measure Type.

          iv.    For Standards, the managerial cost accounting system should capture
                 information on Planned Output Units and Planned Output Costs.

           v.    For Operations Accumulators, the managerial cost accounting system
                 should capture information on Output Unit and Output Unit Costs.

Cause:

According to FCC management, BEAMS was not designed to function as a full
managerial cost accounting system as defined in SFFAS No. 4, Managerial Cost
Accounting Concepts and Standards for the Federal Government, and FSIO System
Requirements for Managerial Cost Accounting. FCC management does not use BEAMS
for budgetary and other management reporting purposes. Instead, FCC uses BEAMS to
accumulate and allocate FCC costs of conducting business across the FCC’s six (6)
strategic goals.

Effect:



                    Performance Audit of FCC’s Managerial Cost Accounting System
                                               8
BEAMS’ usefulness as a management tool is limited because it lacks the comprehensive
financial and operations information classification structures. Therefore, functions such
as determining the cost of outputs, tracking progress against established goals, and
determining the efficiency of operations cannot be performed.

Recommendations:

We recommend the Chief Financial Officer, Bureaus, and Offices:

    2. Evaluate the business processes and management’s reporting requirements to
       determine the financial and operations information classification structures that
       need to be captured, maintained, and reported through a managerial cost
       accounting system to meet FCC’s strategic goals.

For the new managerial cost accounting subsystem, we recommend the Chief Financial
Officer:

    3. Implement the requisite financial and operations information classification
       structures, based on the evaluation results from Recommendation Two (2), in a
       cost effective manner.

Management’s Response:

FCC management concurs. As discussed in management’s response to Finding A, FCC
management have already begun to address this issue with the replacement of BEAMS
and the core financial system, which is scheduled to be completed in October 2010. They
will evaluate the Commission’s business processes and management reporting
requirements to ensure that the new managerial accounting subsystem meets the
Commission’s operational needs in a cost effective manner.

Evaluation of Management’s Response:

We consider management’s response to be adequate to address the finding.

Finding C – FCC Has Not Fully Documented Requirements for the New
           Managerial Cost Accounting Subsystem

Condition:

FCC management has not documented all of the key requirements from the FSIO System
Requirements for Managerial Cost Accounting for the new managerial cost accounting
subsystem, which will replace BEAMS. The new managerial cost accounting subsystem
will be a part of the Momentum Enterprise system. Appendix D discusses in full detail

                  Performance Audit of FCC’s Managerial Cost Accounting System
                                             9
the background information for this finding and the results of our comparative analysis of
FCC’s documented and defined requirements versus the FSIO requirements. Refer to
Appendix E for a glossary explaining key terms.

We found that FCC has not documented the following financial and operations
information data elements and functional requirements:

      Financial Information

           Organization Unit (Responsibility Segment)
           Financial Accumulators (Planned Total Cost Dollars and Units)

      Operations Information

           Activity Type (Product/Service Type)
           Efficiency Measures
           Standards (Planned Output Units and Planned Output Costs)
           Operations Accumulators (Output Unit)

      Functional Requirements

           The inter-entity costs should be assigned to the responsibility segments that
            use the inter-entity services and products (for the cost assignment
            requirements).
           The managerial cost accounting system should be capable of supporting cost
            management by performing such tasks as the following:
               Accumulate costs in agency-defined cost centers that are associated with
                agency-defined performance measures.
               Accumulate numerically valued agency-defined output information.
               Calculate the unit cost of outputs.
               Produce unit cost reports by output.

Criteria:

According to FSIO System Requirements for Managerial Cost Accounting, an agency’s
managerial cost accounting system, whether manual or automated, should be able to
provide cost information with sufficient detail to allow sound decision making in each of
the following areas: (1) budgeting and cost control, (2) performance measurement, (3)
determining reimbursements and setting fees and prices, (4) program evaluations, and (5)
making economic choice decisions.


                   Performance Audit of FCC’s Managerial Cost Accounting System
                                             10
Further, the requirements state:

         “The essential categories of the financial information classification structure are
          organizational unit, funding identification, accounting categorization, program,
          special descriptors, and financial accumulators.”
         “The essential categories of the operations information classification structure are
          operations unit, activity type, efficiency measures, and operations accumulators.”
         “The managerial cost accounting system must capture or be able to access several
          types of data. This includes data on costs, units, exchange revenues, and gains
          and losses.”
                 “The inter-entity costs for goods and services received from other federal
                 entities should be assigned to the responsibility segments that use the
                 inter-entity services and products.”
                “The managerial cost accounting processes should perform cost
                 monitoring tasks such as:
                    Accumulating costs in agency-defined cost centers that are associated
                     with agency-defined performance measures.
                    Accumulating numerically valued agency-defined output information.
                    Calculating the unit cost of outputs.
                    Producing unit cost reports by output.”

Cause:

According to FCC management, they have documented the core system requirements for
the new financial system, but did not include all the required managerial cost accounting
requirements because they plan to review more functionality within the cost management
module after the core financial system is implemented (October 2010).

Effect:

The benefits associated with planning, decision making, and reporting may not be
realized or may be diminished if an effective managerial cost accounting system is not
implemented due to the lack of fully defined requirements to meet business needs.

If the information and functional requirements are not defined and documented before the
new managerial cost accounting subsystem is placed into production, significant
requirements may be discovered later causing costly rework and implementation delays.

Recommendations:

We recommend the Chief Financial Officer, Bureaus, and Offices:


                     Performance Audit of FCC’s Managerial Cost Accounting System
                                               11
    4. Evaluate, define, and document the information (financial and operational) and
       functional requirements for the new managerial cost accounting subsystem.

We recommend the Chief Financial Officer:

    5. Implement the requisite functional requirements, based on the evaluation results
       from Recommendation Four (4), in a cost effective manner − in addition to the
       requisite financial and operations information classification structures in
       Recommendation Three (3) − for the new managerial accounting subsystem.

Management’s Response:

FCC management concurs. They will evaluate, define, and fully document the new
managerial cost accounting subsystem’s requirements and implement those functional
requirements that provide cost information to managers that improve the Commission’s
operations in a cost effective manner.

Evaluation of Management’s Response:

We consider management’s response to be adequate to address the finding.




                 Performance Audit of FCC’s Managerial Cost Accounting System
                                           12
Appendix A
Objective, Scope, and Methodology


Objective

The objective of the performance audit was to determine whether FCC’s managerial cost
accounting system is compliant with FSIO System Requirements for Managerial Cost
Accounting for fiscal year ending September 30, 2009. Since BEAMS will be upgraded,
we, also, compared the FCC documented system requirements for the new managerial
cost accounting subsystem to the FSIO System Requirements for Managerial Cost
Accounting to identify variances.

Scope

The audit scope was for fiscal year ending September 30, 2009. Audit fieldwork was
conducted at FCC headquarters in Washington, DC, from October 2009 through March
2010. The audit scope, in addition, included BEAMS, the manual processes to compile
the Consolidated Statement of Net Cost, and the system requirements for the new
managerial cost accounting system.

Methodology

To achieve our audit objectives, we performed inquiries, analyzed documentation and
data, and inspected system settings.

Additionally, we considered the following laws, regulations, and guidelines:

       Chief Financial Officers (CFO) Act of 1990
       Statement of Federal Financial Accounting Standards (SFFAS) No. 4, Managerial
        Cost Accounting Concepts and Standards for the Federal Government, July 31,
        1995
       Statement of Federal Financial Accounting Concepts (SFFAC) No. 2, Entity and
        Display, June 5, 1995
       The American Recovery and Reinvestment Act of 2009
       FCC OIG Policies, Procedures, and Quality Control Procedures
       E-Government Act of 2002 (Public Law 107-347, 44 U.S.C. Ch 36), December
        2002
       President’s Management Agenda Fiscal Year 2002 (www.omb.gov)
       OMB Memorandum M-03-18, Implementation Guidance for the E-Government
        Act (www.omb.gov)
       OMB Circular A-123, Management’s Responsibility for Internal Control
        (www.omb.gov)
       OMB Circular A-127 Revised, Financial Management Systems, (www.omb.gov)


                  Performance Audit of FCC’s Managerial Cost Accounting System
                                            13
      Federal Information System Controls Audit Manual (FISCAM), February 2009
      Government Performance Results Act of 1993
      OMB Circular No. A-136, Financial Reporting Requirements, June 10, 2009
      Appendix III to OMB Circular No. A-130, Management of Federal Information
       Resources, revised 2000
      FSIO Framework for Federal Financial Management Systems (JFMIP-SR-01-
       04), May 2004
      FSIO System Requirements for Managerial Cost Accounting (FFMSR-8),
       February 1998

The audit was conducted in accordance with Government Accountability Office (GAO)
Government Auditing Standards (GAGAS), July 2007 Revision. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

While the audit work was performed and the report was prepared under contract, the
audit results are being reported by the FCC Office of Inspector General to appropriate
FCC officials.




                  Performance Audit of FCC’s Managerial Cost Accounting System
                                            14
Appendix B
BEAMS Process Narrative


Background Information

General System Description

FCC selected Momentum to serve as the basis for BEAMS. BEAMS went into
production in FY 2003 and it runs on a Microsoft Windows-based operating system.
Currently, there are four (4) BEAMS user accounts.

FCC has a service level agreement and inter-agency agreement with National Business
Center (NBC).

Business Purpose

BEAMS consolidates and reports the Statement of Net Cost and financial data.

History and Upgrades

In September 2006, FCC elected to upgrade BEAMS from an unsupported release of
Momentum to a more current release of Momentum. Upgrading to the current version
allowed the FCC to take advantage of enhancements that improved both use of the
system for the FCC and overall system performance. This upgrade effort also included
the reintegration of the FCC Custom Payroll Subsystem, a revision of all BEAMS
documentation for the changes resulting from the upgrade, and training to familiarize
FCC users with the steps necessary for the execution of BEAMS Interfaces and
Allocation Models.

Contractual Agreements

NBC provides operational support, software management for the systems software and
application software, system analysis, functional design, software development and
acquisition, system implementation and user training. NBC provides the mainframe and
client/server computer and telecommunications services necessary to host and operate
administrative systems through its computing center in Denver, CO.

FCC Management Cost Accounting Process

System Interfaces

BEAMS interfaces with the FCC's FFS application to receive the relevant financial data
for allocation and related reporting. FFS interfaces with the National Finance Center’s
Federal Personnel and Payroll System (FPPS) for payroll data.

A monthly journal file containing summarized target transactions from FFS daily journal
files is created to load into BEAMS. The monthly journal file includes all transactions
necessary to support the cost allocation models within BEAMS.


                    Performance Audit of FCC’s Managerial Cost Accounting System
                                              15
The payroll information is transferred from the National Finance Center’s payroll system
(hosted in New Orleans, LA) to NBC that converts data to a general ledger format. NBC
loads this information into FFS (hosted in Denver, CO) at a summary level and into
BEAMS (hosted in Reston, VA) at a detailed level in order to allocate the costs.
Specifically, a payroll hours accrual file is created from the monthly payroll dollar
accruals file to load into BEAMS.

Interface Controls

On a monthly basis, the data center housing FFS sends FCC a spreadsheet showing the
data, which was transmitted to BEAMS. After corrections have been made to the
rejected transactions from the transmitted files, the Office of Managing Director,
Financial System Operations Group (FSOG) runs a script to determine whether there are
any discrepancies between the spreadsheet and the data posted from FFS to BEAMS.

Allocation Methods

FCC accumulates costs using project codes from FFS and allocates costs in BEAMS.
Costs (direct and indirect) are assigned to the FCC’s strategic goals: Broadband,
Competition, Homeland Security, Media, Modernize the FCC, and Spectrum. The
project codes are assigned to direct material, direct labor, and overhead (indirect) costs.
Project codes are directly traced to the output costs (direct charge method). Indirect costs
such as indirect labor, general administration, and rent are assigned to direct projects on a
prorated basis, such as full time equivalent.

Output from BEAMS

BEAMS generates the Goal Model report that is used to produce the Consolidated
Statement of Net Cost. The Goal Model report shows FCC costs allocated to the six (6)
strategic goals.

The reporting components send electronic spreadsheets with summary financial
information to FCC. Then an accountant manually compiles the Consolidated Statement
of Net Cost with data from the Goal Model report generated from BEAMS and the
components’ electronic spreadsheets. The reporting components for the Consolidated
Statement of Net Cost include Universal Service Fund, Telecommunication Relay
Service, and North American Numbering Plan.

Reconciliation Controls

On a quarterly basis, FCC compiles the Consolidated Statement of Net Cost. An
accountant performs reconciliations on the Universal Service Administrative Company
data to ensure the data are valid and accurate.




                     Performance Audit of FCC’s Managerial Cost Accounting System
                                               16
Migration to New Cost Accounting System

FCC has a project (Momentum GENESIS) to migrate from the current Momentum
Enterprise System to a new version of Momentum in October 2010. Included in this
migration is the replacement of BEAMS.

FSIO Requirements Implemented

The following table illustrates the current implementation status of the managerial cost
accounting system’s capabilities and the FSIO requirements.

     FSIO Requirements                 FCC as                  Comments
                                     Implemented
                                       BEAMS
                                     Requirement
Financial Information               No                 Missing data elements,
Requirements                                           which are identified in
                                                       Findings B

Operations Information              No                 Missing data elements,
Requirements                                           which are identified in
                                                       Findings B

Program Information                 No                 This is an optional
Requirements (Optional)                                requirement

Integration Requirements            No                 Missing data elements,
                                                       which are identified in
                                                       Findings B and C, and
                                                       BEAMS does not produce
                                                       complete cost data (Finding
                                                       A)


Functional Requirements:            No                 Missing data elements,
System Administration                                  which are identified in
                                                       Findings B

Functional Requirements: Data       Yes
Capture

Functional Requirements: Cost       Yes
Assignment

Functional Requirements: Cost       Yes
Classification

Functional Requirements: Cost       No                 Missing functional
Monitoring                                             requirements, which are
                                                       identified in Finding C




                        Performance Audit of FCC’s Managerial Cost Accounting System
                                                  17
Appendix C
Management’s Responses to Findings

This section contains management’s responses to the findings.




                  Performance Audit of FCC’s Managerial Cost Accounting System
                                            18
Performance Audit of FCC’s Managerial Cost Accounting System
                          19
Appendix D
Detailed Information for Finding C

According to FSIO requirements, the managerial cost accounting system should share
summary data with the core financial system and other transaction processing systems.
The managerial cost accounting system should be designed to eliminate unnecessary
duplication of transaction entry and share data elements without reentering or
reformatting data. Then the managerial cost accounting system captures and processes
data according to the functional requirements.

There are three (3) main categories of requirements: information, functional, and
integration.

The information requirements describe the types of data needed to support managerial
cost accounting: financial, operations, and program (which is optional). The financial
information classification structure is the primary structure for capturing accounting
information, including costs, revenues, and units of input, such as labor, inventory, etc.
The operations information classification is used to measure the efficiency of an
operation and associate costs to outputs.

The functional requirements include: system administration, data capture, cost
assignment, cost classification, and cost monitoring.

The integration requirements provide the basis for required data interchanges between
systems that support managerial cost accounting directly with other systems that provide
or receive cost data or related information.

This table discusses the results of our comparative analysis of FSIO requirements and
FCC defined requirements for the new managerial cost accounting subsystem:



No.       FSIO System Requirements for        FCC Defined Requirements
      Managerial Cost Accounting (February     for New Managerial Cost
                      1998)                      Accounting Subsystem
1     Financial Information Requirements      Data elements partially
                                              defined
      For Organization Unit, the managerial
      cost accounting system needs at least
                                              Define additional (lower)
      three levels: Reporting Entity,
                                              levels in the fund, program,
      Responsibility Segments, and
                                              project, organization and
      Responsibility Centers.
                                              object class structures (e.g.
                                              establish parent child
                                              relationships with the ability
                                              to summarize, distribute
                                              funds, and report data at all
                                              defined levels). (SYS
                                              MGMT SRS Requirement
                                              Number SM-10)

                                              Maintain an accounting
                                              classification structure that


                   Performance Audit of FCC’s Managerial Cost Accounting System
                                              20
                                              can associate each element
                                              with multiple other elements
                                              and element values. (SYS
                                              MGMT SRS Requirement
                                              Number SM-11)


2   Financial Information Requirements        Data element partially
                                              defined
    For Financial Accumulators, the
    managerial cost accounting system
                                              The project codes
    should be capable of accumulating the
                                              accumulate cost dollars
    monthly, current year, four prior years
    and inception date to total for: Cost
    Dollars, Planned Total Cost Dollars,
    and Units.

3   Operations Information Requirements       Data element not defined
    For Activity Type, the managerial cost
    accounting system should capture
    information on Product/Service Type.

4   Operations Information Requirements       Data element not defined
    For Efficiency Measures, the
    managerial cost accounting system
    should capture information on
    Efficiency Measure Type.

5   Operations Information Requirements       Data element not defined

    For Standards, the managerial cost
    accounting system should capture
    information on Planned Output Units
    and Planned Output Costs.

6   Operations Information Requirements       Data elements partially
                                              defined
    For Operations Accumulators, the
    managerial cost accounting system
                                              Operations Accumulator
    should capture information on Output
                                              Output Costs have been
    Unit and Output Unit Costs.
                                              defined, but not Output
                                              Units.
7   Functional Requirements (Cost             Requirement not defined
    Assignment)


    The inter-entity costs should be
    assigned to the responsibility segments
    that use the inter-entity services and
    products.
8   Functional Requirements (Cost             Requirements not defined
    Monitoring)


                  Performance Audit of FCC’s Managerial Cost Accounting System
                                              21
The managerial cost accounting
processes should support cost
management by performing such tasks
as:
     Accumulate costs in agency-
        defined cost centers that are
        associated with agency-
        defined performance
        measures.
     Accumulate numerically
        valued agency-defined output
        information.
     Calculate the unit cost of
        outputs.
Produce unit cost reports by output.




             Performance Audit of FCC’s Managerial Cost Accounting System
                                        22
Appendix E
Glossary

activity type. Type of output to be measured within an operation to accurately diagnose
problem areas or areas needing improvements in efficiency, such as case processing,
publications printed, or tax returns processed.

accounting categorization. Contains the elements used to track assets, costs and
revenues in the cost system. At a minimum categorization in a cost system must include:
standard general ledger account, object class/cost element, entity/non-entity/inter-entity
indicator, federal/non-federal indicator, reporting period, and revenue source code.

efficiency measures. Based on the relationship between inputs (i.e., personnel hours)
and the volume of output (i.e., number of cases processed).

financial accumulators. The dollar amounts of inputs and the related unit information
(e.g., units, labor hours) aggregated from financial events in other systems reflecting time
periods (e.g., daily, monthly, current year, inception to date).

financial information classification structures. Used for collecting, categorizing,
tracking, monitoring, and reporting information on the costs of a federal agency.

inter-entity costs. Each entity's full cost should incorporate the full cost of goods and
services that it receives from other entities. The entity providing the goods or services has
the responsibility to provide the receiving entity with information on the full cost of such
goods or services either through billing or other advice.

planned total cost dollars. The planned total dollar amounts of inputs aggregated from
financial events in other systems reflecting time periods (monthly, current year, four prior
years and inception to date).

operations accumulators. Capture the actual number of output units (i.e., number of
cases processed) and the actual output unit cost (i.e., cost per case processed). Operations
accumulators can then be compared to the standards.

operations unit. The unit to which outputs will be associated. Operations information
such as responsibility segment, responsibility center, program, and project are captured as
an operations unit.

organization unit. Organization unit is the level at which financial information is
consolidated and reported within an agency or externally to central agencies.

output unit. Any product or service generated from the consumption of resources. It
can include information or paper work generated by the completion of the tasks of an
activity.

output unit costs. The costs for an output unit.




                   Performance Audit of FCC’s Managerial Cost Accounting System
                                             23
planned output units. A performance target usually set by senior management
indicating the number of outputs (i.e., number of cases that will be process).

planned output costs. A performance target usually set by senior management
indicating the costs of the outputs (i.e., costs for the cases to be processed).

reporting entity. The level at which financial statements are produced.

responsibility segment. A significant organizational, operational, functional, or process
component where (a) its manager reports to the entity’s top management, (b) it is
responsible for carrying out a mission, conducting a major line of activity, or producing
one or a group of related products or services, and (c) for financial reporting and cost
management purposes, its resources and results of operations can be clearly distinguished
from those of other segments of the entity.

standards. Performance targets, which are usually set by senior management.

statement of net cost. A required financial statement whose completion is facilitated by
a managerial cost accounting system.




                  Performance Audit of FCC’s Managerial Cost Accounting System
                                            24
Appendix F
Acronyms


    BEAMS        Budget Execution and Management System
    CFO          Chief Financial Officer
    FCC          Federal Communications Commission
    FISCAM       Federal Information Systems Controls Audit Manual
    FFS          Federal Financial System
    FPPS         Federal Personnel and Payroll System
    FSIO         Financial Systems Integration Office
    FSOG         Office of Managing Director, Financial System Operations Group
    FY           Fiscal Year
    GAGAS        Generally Accepted Government Auditing Standards
    GAO          Government Accountability Office
    GSA          General Services Administration
    NBC          National Business Center
    OIG          Office of Inspector General
    OMB          Office of Management and Budget
    OMD          Office of Managing Director




             Performance Audit of FCC’s Managerial Cost Accounting System
                                       25
